<html>
<title> - TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2012</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
TRANSPORTATION AND HOUSING AND URBAN DEVELOPMENT, AND RELATED AGENCIES 
                  APPROPRIATIONS FOR FISCAL YEAR 2012

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [The following testimonies were received by the 
Subcommittee on Transportation and Housing and Urban 
Development, and Related Agencies for inclusion in the record. 
The submitted materials relate to the fiscal year 2012 budget 
request for programs within the subcommittee's jurisdiction.]
  Prepared Statement of the American Public Transportation Association
                              introduction
    Mr. Chairman and members of the subcommittee, on behalf of the 
American Public Transportation Association (APTA), I thank you for this 
opportunity to submit written testimony on the fiscal year 2012 
Transportation and Housing and Urban Development, and Related Agencies 
appropriations bill as it relates to Federal investment in public 
transportation and high-speed and intercity passenger rail (HSIPR).
    APTA's highest priority is the enactment of a well-funded, 6-year, 
multimodal surface transportation authorization bill, as it is one of 
the most important actions the Congress can take to improve mobility 
for our citizens and put our Nation's economic engine into high gear. 
We recognize the challenge that the absence of an authorization bill 
places on the Appropriations Committee, yet we must stress the 
tremendous needs that persist for public transportation agencies 
throughout the country. A strong commitment to investment in our 
transportation infrastructure remains essential to the Nation's 
economic prosperity and fiscal health. Failure to invest will force 
private sector businesses in the transit industry and other industries 
to lay off employees and to invest overseas. For the Nation's tens of 
millions of transit riders, it will mean less service, fewer travel 
options, higher costs, and longer commutes.
             overview of fiscal year 2012 funding requests
    The fiscal year 2012 Obama administration budget requests $22.4 
billion for public transportation programs, and $8.3 billion for HSIPR. 
This includes a one-time, upfront investment of $11.5 billion for the 
Federal Transit Administration (FTA) programs and the first installment 
of the administration's $53 billion 6-year proposal for high-speed and 
intercity rail investment.
    APTA strongly supports the President's proposed public 
transportation budget request. APTA's authorization recommendations, 
which had assumed enactment of authorizing legislation 2 years ago, 
proposed a Federal transit investment of $17.9 billion in fiscal year 
2012. APTA urges the Congress to resist efforts to make further cuts to 
general fund components of the Federal transit program, such as Capital 
Investment Grants and research, as these are important elements of 
Federal surface transportation investment. We are most disappointed 
with the severity of cuts in the Full-Year Continuing Appropriations 
Act for fiscal year 2011, as the need for these investments is only 
growing, and the costs associated with these investments will be 
greater in future years.
    Our funding request continues to be instructed by APTA's 
recommendations for surface transportation authorization and the 
estimated Federal funding growth required to meet at least 50 percent 
of the $59.2 billion in annual capital needs by the end of the 
authorization period. These levels are intended to support a projected 
doubling of transit ridership over the next 20 years. The American 
Association of State Highway and Transportation Officials agrees with 
APTA's estimate, stating in its ``Bottom Line Report for 
Transportation--2009'' that ``if transit ridership grows yearly by 3.5 
percent, investment would have to increase to $59 billion annually.'' 
It is important that steady and growing investment continue despite 
economic or fiscal situations, as demand and long-term planning 
requirements for transportation investment continue as well.
    APTA strongly opposes the elimination of prior-year HSIPR funding. 
These funds are needed to ensure that the 32 States and the District of 
Columbia which are forging ahead with planning and implementing HSIPR 
improvements can continue their efforts to modernize and expand our 
Nation's passenger rail services.
    Finally, we encourage the Congress to fund the Rail Safety 
Technology Grants program (section 105) of the Rail Safety Improvement 
Act (RSIA) at a level significantly higher than the $50 million annual 
authorization, to assist with the implementation of congressionally 
mandated positive train control (PTC) systems. The federally imposed 
deadline for implementation of PTC systems is rapidly approaching, and 
neither the Congress nor the administration is proposing to put the 
necessary funding behind this safety priority.
                the need for federal transit investment
    In previous testimony to this subcommittee, I have presented the 
case for increasing Federal investment in public transportation. APTA 
has recommended $123 billion of transit investment over 6 years, and 
President Obama has proposed $119 billion in the same period. In either 
scenario, new Federal investment would produce much-needed progress 
toward bringing our Nation's public transportation infrastructure up to 
a state of good repair, improving safety, and building the capacity for 
millions of new riders who will want quality transit service in the 
coming years. The Department of Transportation (DOT) estimates that a 
one-time investment of more than $78 billion is needed to bring transit 
infrastructure up to a state of good repair, and this does not include 
annual costs to maintain and preserve the existing system. Research on 
transit needs shows that capital investment from all sources--Federal, 
State, and local--should be doubled if we are to prepare for future 
ridership demands.
    I want to stress that the demand for public transportation and the 
need for Federal leadership will not diminish in the months and years 
ahead. As gasoline prices continue to increase, Americans are turning 
to public transportation in record numbers, just as they did in 2008 
when gas reached an average price of $4.11 per gallon. APTA recently 
completed an analysis that reveals if regular gas prices reach $4 a 
gallon across the Nation, as many experts have forecast, an additional 
670 million passenger trips could be expected, resulting in more than 
10.8 billion trips per year, roughly a 6-percent increase. If pump 
prices jump to $5 a gallon, the report predicts an additional 1.5 
billion passenger trips can be expected, resulting in more than 11.6 
billion trips per year. And if prices were to soar to $6 a gallon, 
expectations go as high as an additional 2.7 billion passenger trips, 
resulting in more than 12.9 billion trips per year. The volatility of 
the price at the pump is another wake up call for our Nation to address 
the increasing demand for public transportation services.
                federal transit administration programs
    Capital Investment Grants (New Starts).--The New Starts program is 
the primary source of Federal investment in the construction or 
expansion of bus rapid transit projects, heavy and light rail transit 
systems, and commuter rail systems. Unlike most other FTA programs, the 
New Starts program is funded from the General Fund, not the Mass 
Transit Account of the Federal Highway Trust Fund. Funding for New 
Starts was previously included in funding guarantees for highway and 
transit programs, and the success of these major, multi-year capital 
projects requires predictable support by the Congress and FTA. The 
Congress established Full Funding Grant Agreements to ensure this 
predictability. A continued commitment to Federal investment will also 
influence the willingness of private financial markets to fund public 
transportation projects and it will guarantee that the bond ratings 
will remain high and interest rates will remain low. Going forward, 
whether the New Starts program is funded out of the general fund or 
from a trust fund, APTA believes that the program should grow at the 
same rate as the rest of the transit program. New Starts is essential 
to enhancing our Nation's mobility, accessibility, and economic 
prosperity while promoting energy conservation and environmental 
quality.
    Formula and Bus and Bus Facilities.--Like other elements of the 
program, we urge the Congress to grow funding for existing formula 
programs, including urban and rural formula, small transit intensive 
cities, fixed guideway modernization, and others at a rate consistent 
with overall FTA funding. These formula programs address core needs of 
our public transportation systems, and deserve the continued support of 
the Congress. In our authorization recommendations, APTA recommends 
modifying the current Bus and Bus Facilities program to create two 
separate categories of funding, with 50 percent distributed under bus 
formula factors, and the remaining 50 percent available under a 
discretionary program distributed either through congressional 
direction or a competitive grants process administered by FTA. This is 
particularly relevant to the consideration of appropriations 
legislation as we recognize that the Congress will attempt to address 
the issue of earmarks and discretionary spending accounts. It is 
important to recognize that certain transit needs like facilities 
projects, are often larger than an agency's typical formula allotment, 
and as such, will require discretionary decisionmaking on either the 
part of the Congress, or the administration, in order to effectively 
fund such projects.
                federal railroad administration programs
    Positive Train Control.--A high priority for APTA within the 
programs of the Federal Railroad Administration (FRA) is the adequate 
funding of the Railroad Safety Technology Grants Program, section 105 
of RSIA of 2008. APTA is very discouraged that the Congress has 
rescinded fiscal year 2010 appropriations for this program in addition 
to the possibility of leaving it unfunded in fiscal year 2011. RSIA 
requires commuter rail operators implement PTC systems by December 31, 
2015, and APTA is urging the Congress to increase the authorized levels 
for implementation of PTC systems required under RSIA. The cost of 
implementing PTC on public commuter railroads alone is estimated to 
exceed $2 billion, not including costs associated with acquiring the 
necessary radio spectrum or the subsequent software and operating 
expenses. Our Nation's commuter rail systems are committed to complying 
with the PTC mandate and implementing critical safety upgrades. 
However, both the costs associated with implementing PTC, as well as 
the challenges associated with a technology that is still under 
development, are quite substantial. Full funding will help ensure that 
these important safety improvements can be implemented within the 
required timeframe.
    High-Speed and Intercity Passenger Rail Investment.--Ridership in 
the overall passenger rail market in the United States has been 
steadily growing, with commuter rail being one of the most frequently 
used methods of public transportation for those traveling from outlying 
suburban areas to commercial centers of metropolitan areas, often to 
and from places of employment, education, commerce and medical care. 
The most recently published APTA public transportation ridership 
report, which provides data on transit passenger ridership for U.S. 
transit agencies, shows a continued strong demand for public 
transportation despite the economic downturn, with nearly 10.2 billion 
trips taken on public transportation nationally in 2010. The demand for 
commuter rail service has also remained strong, with 13 of 26 commuter 
rail systems in operation for all of 2010 reporting ridership increase. 
Similarly, despite the Nation's slow economy, Amtrak experienced record 
ridership in the last fiscal year, reporting a ridership increase of 
4.6 percent for an overall ridership of more than 28.7 million 
passengers. As the current political unrest in many oil producing 
nations continues, more and more commuters are turning to public 
transportation to escape rising gas prices, and many transit operators 
are reporting double digit ridership increases this year.
    In addition to commuter rail, it is critical that intercity 
passenger rail become a more useful transportation option for travelers 
looking for alternatives to high gas prices and congested road and air 
travel in many corridors. While much attention has been lavished on 
three Governors who rejected Federal rail funding for their States, 32 
other States plus the District of Columbia are forging ahead in 
planning and implementing rail improvements. Funding from the three 
States which opted to cancel their HSIPR programs is being redirected 
by DOT to other HSIPR projects across the country.
                               conclusion
    I thank the subcommittee for allowing me to share APTA's views on 
fiscal year 2012 public transportation and high-speed and intercity 
rail appropriations issues. We look forward to working with the 
subcommittee to make the necessary investments to grow the public 
transportation program. We urge the subcommittee to invest in making 
commuter, intercity, and high-speed rail safer by fully appropriating 
the funds authorized in the RSIA. Finally, we support the efforts of 
the Congress thus far to invest in a high-speed rail system and 
encourage your subcommittee to continue support for this effort. This 
is a critical time for our Nation to continue to invest in transit 
infrastructure that promotes economic growth, energy independence, and 
a better way of life for all Americans.
                               about apta
    APTA is a nonprofit international association of nearly 1,500 
public and private-member organizations, including transit systems and 
commuter, intercity and high-speed rail operators; planning, design, 
construction, and finance firms; product and service providers; 
academic institutions; transit associations and State departments of 
transportation. APTA members serve the public interest by providing 
safe, efficient, and economical public transportation services and 
products. More than 90 percent of the people using public 
transportation in the United States and Canada are served by APTA-
member systems.
                                 ______
                                 
    Prepared Statement of the Manufactured Housing Association for 
                           Regulatory Reform
    The Manufactured Housing Association for Regulatory Reform (MHARR) 
is a national trade association representing the views and interests of 
producers of manufactured housing. Manufactured housing has 
historically been the Nation's leading source of affordable, 
nonsubsidized home ownership. But, the manufactured housing industry is 
in danger of disappearing, with devastating consequences for affordable 
housing, employment, and job creation. Over the past decade, 
manufactured home production has declined by more than 86 percent (from 
373,143 units in 1998 to 50,046 in 2010), nearly 75 percent of the 
industry's production facilities have closed (from 430 to fewer than 
110), together with more than 7,500 retail centers, resulting in the 
loss of more than 200,000 jobs.
    The decline of the manufactured housing industry began long before 
the decline of the broader housing market, and has been much more 
severe. This disparity is principally a result of two factors. The 
first is a costly and unjustified expansion of Department of Housing 
and Urban Development (HUD) regulation, in the face of rapidly 
diminishing production. Second, this regulatory expansion, imposed by 
circumventing or undermining key program reforms mandated by the 
Congress in the Manufactured Housing Improvement Act of 2000, has 
ensured the continuing status of manufactured homes as ``trailers,'' 
fueling discrimination against manufactured homes and manufactured home 
purchasers.
    The HUD program has been able to engage in this unwarranted 
regulatory expansion because of an artificially inflated budget which 
has not had adequate oversight either within HUD or by the Congress in 
recent years. The HUD manufactured housing program was originally 
conceived as a self-funding program. In fiscal year 2009, HUD, for the 
first time, sought and received a direct appropriation of $5.4 million 
in general revenue funds, supposedly as a one-time request, to 
implement the new Federal installation and alternate dispute resolution 
(ADR) programs mandated by the 2000 law. In fiscal year 2010, however, 
HUD requested an additional $9 million direct appropriation. This 
infusion of millions of dollars in tax funds, though, has not been used 
to implement the new programs of the 2000 law. Instead, these funds 
have been used to impose a needless ``make-work'' regulatory expansion 
and, with it, an increase in the size of HUD program staff and the 
duties and functions of its entrenched inspection ``monitoring'' 
contractor, all at a time of dramatically reduced production levels, 
while revenue allocated to the States for consumer protection has been 
significantly reduced.
    Now, in its fiscal year 2012 budget request, despite continued 
weakness in the manufactured housing market, HUD is seeking $14 million 
in total program budget authority. This involves yet another $7 million 
direct appropriation of general revenue funds and an announced label 
fee increase from $39 to $60 per home section. HUD claims that it needs 
$3.8 million for an ``installation inspect and enforcement'' contract 
and $1.4 million for a ``dispute resolution enforcement'' contract. 
These are the same contracts, however, for which HUD requested tax 
revenues in 2009 and 2010, but did not award, while it used the 
additional funds provided by the Congress to needlessly expand 
regulation and program staff, and increase funding for its inspection 
``monitoring'' contractor. In fact, though, there is no legitimate 
basis for a budget of this size or further infusions of taxpayer 
dollars when industry production continues to decline and the Federal 
Government faces a large deficit. Accordingly, the Congress should 
carefully scrutinize HUD's fiscal year 2012 budget request, as detailed 
below, based on section 620 of the 2000 law, pertaining to program 
funding and expenditures.
              improper expansion of production regulation
    Section 620(a)(1)(A) of the 2000 law provides for the use of the 
authorized fee paid by manufacturers to conduct ``inspections and 
monitoring.'' Section 620(c), however, as amended by the 2000 law, 
prohibits HUD from using ``any fee collected under this section'' for 
``any purpose or activity not specifically authorized by this title.''
    Section 604(b) of the law specifically requires HUD to bring 
proposed regulations or amendments to the Manufactured Housing 
Consensus Committee (MHCC) for consensus review and input, followed by 
notice and comment rulemaking. Section 604(b)(6) of the 2000 law 
further requires HUD to bring any change to ``policies practices, or 
procedures relating to . . . inspections, monitoring, or other 
enforcement activities'' to the MHCC for consensus review and input, 
followed by notice and comment rulemaking. The section further provides 
that ``any change adopted in violation'' of its requirements ``is 
void.''
    Starting in 2008, HUD has systematically imposed on manufacturers a 
costly de facto expansion of in-plant regulation without complying with 
the requirements of either section 604(b) generally or section 
604(b)(6) specifically. Indeed, HUD, through a February 5, 2010, 
``interpretive rule,'' issued with no opportunity for public comment, 
has effectively read section 604(b)(6) out of the law completely. 
Absent compliance with section 604(b) and section 604(b)(6), the 
imposition of this program of de facto expanded regulation and 
enforcement is not an activity ``specifically authorized'' by 
applicable law. As a result, its costs--including additional amounts 
paid to contractors for inspections, oversight, or enforcement--should 
not be funded.
                        inadequate state funding
    State administrative agencies (SAAs) are the first line of 
protection for home buyers living in a growing number of both new and 
existing manufactured homes. The law envisions a Federal-State 
partnership for the enforcement of the Federal standards. To ensure 
State participation in this partnership, section 620(a)(1)(B) of the 
law requires HUD to ``provid[e] funding to the States. . . .'' The 
proposed HUD fiscal year 2012 budget, however, as with the last three 
HUD budgets, keeps funding for the States flat (at approximately one-
half the fiscal year 2005 funding level--$3.7 million in 2012, as 
contrasted with $6.6 million in 2005), while artificially and 
unnecessarily increasing contractor funding (and program staff), even 
though the responsibilities of SAAs are more extensive than the 
monitoring contractor. Thus, at the same time that HUD has artificially 
inflated the functions performed by its monitoring contractor, HUD is 
failing to properly fund State participation in the Federal program.
                    noncareer program administrator
    HUD has refused to appoint a noncareer administrator for the 
Federal program, maintaining that such an appointment is discretionary 
under section 620(a)(1). This interpretation of the 2000 law, however, 
is incorrect. The law, as amended in 2000, grants the Secretary of HUD 
permissive authority under section 620(a)(1) to establish a 
``reasonable fee'' to fund specific program functions if the Secretary 
wishes. If such a fee is established, however, as it has been (i.e., 
the HUD label fee), the use of that fund, to offset expenses in 
connection with statutory HUD ``responsibilities'' listed in 
subsections (620)(a)(1)(A)-(G), is nondiscretionary. Despite this 
nondiscretionary ``responsibility,'' the HUD manufactured housing 
program has not had a noncareer administrator since 2004.
                 unwarranted expansion of program staff
    Section 620(a)(1)(D) provides for the use of the authorized fee 
paid by manufacturers to provide ``the funding for salaries and 
expenses of employees of the Department to administer the manufactured 
housing program.'' This provision was designed to encourage HUD to use 
its own employees to carry out most program functions, rather than 
relying on revenue-driven contractors. Due to HUD's make-work expansion 
of in-plant regulation, however, HUD has not only increased program 
staff to 14 employees, its highest level ever, but has also 
systematically increased the functions of--and payments to--its 
monitoring contractor, even though manufactured housing production has 
declined by a factor of more than 86 percent.
                manufactured housing consensus committee
    Section 620(a)(1)(E) provides for the use of the authorized fee 
paid by manufacturers to administer the Manufactured Housing Consensus 
Committee (MHCC) established by the 2000 law. But the independence, 
role, and authority of the MHCC are being emasculated by HUD 
regulators.
    Among other things, HUD career regulators:
  --have refused to trigger the MHCC consensus process for regulations 
        as required by section 604(b) of the 2000 law;
  --have read the ``catch-all'' provision (section 604(b)(6)) requiring 
        MHCC consideration of all new policies and practices affecting 
        enforcement out of the 2000 law through an ``interpretive 
        rule'' issued without public comment;
  --have improperly taken control of the MHCC's agenda, focus, and 
        procedures;
  --have undermined the balance of the MHCC required by law through 
        politicized appointments, by unilaterally selecting the current 
        chairman, by gerrymandering the composition of MHCC 
        subcommittees, and by excluding collective industry 
        representation while appointing four board members and 
        executives of the same consumer group and two former HUD 
        employees/contractors to the committee; and
  --have attempted to improperly suppress stakeholder and public 
        participation in MHCC deliberations.
    HUD maintains that these restrictions are required by the Federal 
Advisory Committee Act (FACA), but that statute does not mandate such 
restrictions, as is demonstrated by a review of the bylaws of other 
FACA committees. Moreover, FACA, by its express terms, is superseded by 
contrary provisions in the authorizing legislation for specific 
advisory committees. In this case, section 604 of the 2000 law 
specifically describes the role, authority, functions and operation of 
the MHCC. To the extent that those provisions conflict with FACA, they 
are controlling.
            failure to ensure parity of manufactured housing
    Section 620(a)(1)(F) provides for the use of the fee paid by 
manufacturers to facilitate ``the acceptance of the quality, 
durability, safety and affordability of manufactured housing within the 
Department.'' This provision reflects the over-riding purpose of the 
2000 law--to complete the transition of manufactured housing from the 
``trailers'' of the cold war era to legitimate ``housing.'' HUD 
regulators, however, have not made any effort--known to MHARR--to 
advance manufactured housing as an equal participant in all HUD housing 
programs and, by failing to fully and properly implement the 2000 law, 
continue to treat manufactured homes as ``trailers,'' thus fueling and 
intensifying discrimination that is crippling the industry.
            failure to properly implement 2000 law programs
    Section 620(a)(1)(G) provides for the use of the fee paid by 
manufacturers for ``the administration and enforcement'' of the Federal 
installation standards and the Federal dispute resolution system in 
``default'' States that do not adopt their own programs under State 
law. Under section 605(c)(2)(B) and section 623(c)(12) of the 2000 law, 
both of these programs were to have been operational by December 2005. 
Yet, according to the latest information available from HUD, neither 
has been fully implemented and, to date, no significant implementation 
contracts have been awarded, even though HUD has included funding for 
contractors for both programs in its budget requests since at least 
2008.
           announced label fee increase--sections 620(d)-(e)
    Section 620(d) of the 2000 law provides that ``the amount of any 
fee collected under this section may only be modified as specifically 
approved in advance in an annual appropriations Act''. Section 
620(e)(2) further provides that ``amounts from any fee collected under 
this section shall be available for expenditure only to the extent 
approved in advance in an annual appropriations Act''.
    HUD's proposed fiscal year 2012 program budget includes a label fee 
increase of more than 50 percent--from $39 per section to $60 per 
section--in addition to an appropriation of general revenue funds in 
the amount of $7 million. HUD provides no specific justification for a 
label fee increase of this magnitude, or a $7 million direct 
appropriation, other than its unsupported assertion that its 
responsibilities remain unchanged notwithstanding a 48-percent decline 
in industry production--and corresponding drop in label fee revenues--
just since 2007. The facts, however, do not support this claim. HUD's 
assertion that its responsibilities remain ``unchanged'' despite a 
sharp decline in industry production is unsupportable. In 2007, the 
industry produced 95,752 HUD Code homes. In 2010, the industry produced 
50,046 HUD Code homes. Accordingly, the program's raw oversight burden 
today is nearly one-half what it was in 2007. This decline should have 
meant lower program expenditures between 2007 and proposed fiscal year 
2012. Instead, the fiscal year 2007 appropriation of $6.510 million 
grew to $16 million in 2009 and 2010, and now a requested $14 million 
for fiscal year 2012.
                               conclusion
    For all the above reasons, the Congress should:
  --require HUD to appoint a noncareer program administrator;
  --require HUD to choose between either a direct appropriation or a 
        label fee increase, but not both; and
  --direct HUD to divert funding from expanded staff and contractor 
        functions to provide adequate funding for State participation 
        in the manufactured housing program.
                                 ______
                                 
       Prepared Statement of the National AIDS Housing Coalition
    The National AIDS Housing Coalition (NAHC) requests $362 million 
for the Housing Opportunities for Persons With AIDS (HOPWA) program for 
fiscal year 2012. NAHC is a national nonprofit membership housing 
organization founded in 1994 that works to end the HIV/AIDS epidemic by 
ensuring that persons living with HIV/AIDS have quality, affordable, 
and appropriate housing. NAHC's members are people living with HIV/AIDS 
(PLWHA), service providers, developers, researchers, public health and 
housing departments, and advocates.
    Research findings presented through NAHC's Research Summit Series 
overwhelmingly confirm that housing is a strategic point of 
intervention to address HIV/AIDS, homelessness, and the concomitant 
effects of race and gender, poverty, mental illness, chronic drug use, 
incarceration, and exposure to trauma and violence. HIV housing 
interventions are a cost-effective means to prevent new HIV infections, 
improve HIV health outcomes, reduce mortality, and reduce reliance on 
other public systems such as expensive emergency and inpatient medical 
services.
    The HOPWA program is relied upon by HIV/AIDS service organizations 
nationwide to assure that stable, affordable housing and the critical 
supportive services that help people remain housed is available to 
those coping with the debilitating and impoverishing effects of HIV/
AIDS. HOPWA's hallmark is its flexibility to provide a continuum of 
housing and housing-related case management and supportive services for 
low-income individuals living with HIV/AIDS and their families. HOPWA 
dollars are used for short- and longer-term rents, facility-based 
assistance as well as limited rent, mortgage, or utility payments that 
play a critical role in homelessness prevention. HOPWA can also be used 
for new development and rehabilitation. In the face of shrinking 
resources, HOPWA's importance to community strategic planning efforts 
cannot be underestimated--facilitating better coordination of local and 
private resources and filling gaps in local systems of care to meet 
housing need among people with HIV/AIDS and their families.
              aids housing is central for hiv/aids health
    A now substantial body of research shows that housing status has a 
direct, independent, and powerful impact on HIV incidence and the 
health of PLWHA, regardless of demographics, drug use, health and 
mental health status, or receipt of other services. Housing affects an 
individual's ability to avoid exposure to HIV; an HIV-positive 
individual's ability to avoid exposing others to HIV; and the ability 
to receive and benefit from HIV healthcare. Whatever else makes one 
vulnerable to HIV infection--homelessness magnifies the risk. Whatever 
other factors lead to disparities in care--for women; for youth; for 
sexual minorities; for people of color; for those who experience mental 
illness, addiction, violence, abuse, or incarceration--housing 
instability amplifies their vulnerability for poor health outcomes and 
early death. Research has consistently shown that people without stable 
housing are significantly more likely to become HIV-infected, they will 
have limited access to care once they are infected, and they will live 
less healthy and shorter lives--compared to people just like them who 
are fortunate enough to have a home.
    Recent findings from the U.S. Centers for Disease Control and 
Prevention (CDC) show how that poverty and homelessness contribute to 
worsening HIV health disparities. CDC surveillance data reveal that at 
least 2.1 percent of heterosexuals living in high-poverty urban areas 
in the United States are HIV-positive--an HIV prevalence rate that is 
more than 20 times greater than the rate among all heterosexuals in the 
United States (0.1 percent), and that exceeds the 1-percent infection 
rate that defines a generalized HIV epidemic. Poverty--not race--is the 
most important demographic factor associated with HIV infection among 
inner-city heterosexuals. Men and women in low-income neighborhoods who 
live below the poverty line are twice as likely to have HIV infection 
as those living above it, and other social factors--including 
unemployment, low-education level, and housing status--are also 
independently associated with infection. Within the low-income 
communities examined, the rate of new HIV infections almost twice as 
high (1.8 times) for inner-city heterosexuals who had experienced 
homelessness in the past year, compared to low-income persons with 
housing.
      aids housing works to improve health and reduce public costs
    Research also shows that receipt of housing assistance is 
independently associated over time with reduced HIV risk behaviors, 
better health outcomes, and sharp reductions in costly emergency and 
inpatient services. Recent findings from housing-based interventions 
provide new evidence that housing supports create stability and 
connection to care for people living with HIV--improving healthcare 
outcomes, changing the individual behaviors that put people at risk of 
acquiring HIV infection, and reducing overall public costs.
    PLWHA who are unstably housed lack ongoing HIV care and rely more 
on expensive crisis services including shelters, jails, and avoidable 
emergency and hospital care. Housing assistance for people with HIV who 
are homeless improves their health outcomes and dramatically reduces 
emergency and inpatient health services, criminal justice involvement, 
and other crisis costs. A recent study funded by the CDC and HUD found 
that more stable housing for people with HIV reduced emergency medical 
visits by 35 percent and hospitalizations by 57 percent. Each new HIV 
infection prevented through more stable housing saves countless life 
years and more than $300,000 in lifetime medical costs. Indeed, housing 
assistance for homeless and unstably housed people living with HIV 
leads to savings in avoidable health services that can more than offset 
the costs of the housing intervention.
    This consistent evidence base supports housing assistance as a 
cost-effective healthcare intervention for homeless and unstably housed 
persons with HIV. Action to meet HIV housing needs costs far less than 
inaction, making HOPWA and other low-income housing programs that serve 
people living with HIV a wise use of limited public resources.
                housing need among people with hiv/aids
    More than 56,000 people became infected with HIV in the past year 
in the United States. Experts estimate that more than one-half of PLWHA 
will need some form of housing assistance during the course of their 
illness, while national research has shown that housing is the greatest 
unmet service need for people living with HIV disease. Data indicates 
that approximately 72 percent of PLWHA have incomes less than $30,000; 
the number in need is likely to increase proportionally with the 
weakened economy and sustained high unemployment levels.
    In 2011, HOPWA will continue providing housing support for more 
than 60,000 households in 133 formula-eligible jurisdictions, providing 
assistance in all 50 States, the District of Columbia, Puerto Rico, and 
the Virgin Islands. Under the current formula configuration, two to 
five new jurisdictions may become available, from cities diverse as 
Greenville, South Carolina to Syracuse, New York. In addition, 91 
competitive grants are currently operating. The program is tied to 
positive client outcomes in the 60,699 households served in the current 
fiscal year, making it possible for assisted individuals to better 
attend to their health needs, function in their families and society. 
AIDS housing is a cost-effective way to end homelessness and achieve 
positive individual and community health outcomes. HUD reports that 94 
percent of all HOPWA rental assistance households in a recent program 
year were able to achieve maximum stability, reducing risks of 
homelessness, and participating in healthcare.
    NAHC recommends a funding level of $362 million, which would permit 
assistance to an additional 4,800 people with HIV/AIDS in need of 
housing.
            examples of aids housing need across the country
    AIDS housing need has exploded in virtually every region of the 
country. Though waiting lists are no longer maintained in many 
jurisdictions, affordable housing need continues to grow. Below is a 
snapshot of the number of HOPWA-eligible households with unmet housing 
needs in cities and states across the country:

------------------------------------------------------------------------
                                                                No. of
                                                                HOPWA-
                                                               eligible
                      City and/or State                       households
                                                              with unmet
                                                                housing
                                                                 needs
------------------------------------------------------------------------
Alabama.....................................................       3,621
California:
    Los Angeles.............................................     > 8,000
    San Francisco...........................................      13,000
    San Jose................................................         279
District of Columbia........................................        >700
Tampa, Florida..............................................         285
Honolulu, Hawaii............................................         130
Chicago, Illinois...........................................      10,257
Iowa........................................................         115
Maine.......................................................         110
Lowell, Massachusetts.......................................         624
Minnesota...................................................         309
New York:
    New York City...........................................      11,000
    Syracuse................................................         103
Columbus, Ohio..............................................         115
Oregon......................................................         202
Philadelphia, Pennsylvania..................................       6,000
Texas:
    Dallas..................................................         617
    El Paso.................................................          56
Seattle, Washington.........................................         425
------------------------------------------------------------------------

            other low-income housing programs remain crucial
    Of course, HOPWA will never fully meet the housing need for all 
those living with HIV/AIDS and their families. AIDS housing providers 
urge full and adequate funding for the range of low-income housing 
programs relied upon in the continuum of housing and services for 
people with HIV/AIDS, including Homeless Assistance Grants, Tenant-
Based Rental Assistance, Public Housing, and Section 811 Housing for 
People with Disabilities, among others.
    In conclusion, NAHC urges the subcommittee to fund the HOPWA 
program at the highest level possible for fiscal year 2011 to 
accommodate new formula jurisdictions expected to become eligible and 
to assist existing programs in moving closer to meeting the actual 
housing needs in their jurisdictions.
    NAHC respectfully asks the subcommittee to approve funding of $362 
million for the HOPWA program for fiscal year 2012.
                                 ______
                                 
 Prepared Statement of the National Association of Railroad Passengers
    Thank you for the opportunity to submit this statement. Thank you 
also for the positive role that you and your subcommittee have played 
over the years in providing funding for intercity passenger trains.
    Energy-efficient passenger trains are more important than ever as 
Amtrak ridership continues to rise, along with gasoline prices. 
Ridership growth is colliding with the realities of a fleet that is too 
small.
    Thus, our key requests for intercity passenger trains for fiscal 
year 2012 are:
  --Full funding of the Obama administration's requested $8 billion for 
        intercity passenger trains, including approximately $4 billion 
        each for network development (capital upgrades to tracks and 
        stations and procurement of new or rebuilt equipment) and for 
        system preservation and renewal. We support this as the 
        baseline for the multi-year commitment as outlined in the 
        administration's budget.
  --The bare minimum should be $4.7 billion, comprised of Amtrak's 
        request of $2.2 billion plus the 2010 level at which High Speed 
        and Intercity Passenger Rail (HSIPR) program was funded, $2.5 
        billion.
    We strongly support the Department of Transportation's (DOT) 
approach in HSIPR grants to the States. We applaud the agreements 
reached to date with BNSF (Washington State), Norfolk Southern (North 
Carolina) and Union Pacific (Illinois). We look forward to the early 
conclusion of agreements with CSX, especially for Virginia and New 
York.
    Failure to meet, at minimum, the funding targets Amtrak identified 
in its fiscal year 2012 grant and legislative request puts the country 
close to a no-growth scenario, which would be extremely unfortunate 
given the likelihood that high gasoline prices are here to stay. 
``Smart growth'' housing, intercity passenger trains, and rail transit 
have two things in common:
  --Both help enable Americans to sustain the highest possible quality 
        of life in a competitive world economy, and to mitigate what 
        The Weekly Standard's Christopher Caldwell called ``America's 
        almost unbelievable demand for oil.'' Caldwell noted that this 
        demand ``has led [the United States] to diverge from the rest 
        of the west on energy policy,'' a polite way of saying that we 
        are headed for trouble if we don't make it possible for more 
        people to burn less oil. (Quotes: Financial Times column, April 
        2.)
  --Demand for both exceeds supply, indicating that the public is ahead 
        of the policymakers and moving faster than the market place can 
        react.
    We continue to urge consideration of the use of tax credits and/or 
asset depreciation benefits to encourage private leasing companies to 
buy equipment and lease it to States and perhaps Amtrak. This could 
help reduce the high upfront costs that taxpayer-supported agencies 
face when procuring new equipment.
    As gasoline prices continue their steady upward climb, airfares are 
at historic highs, and intercity bus service has been dramatically 
scaled back over the past 4 years, America's growing population is 
seeking better, more affordable mobility. Amtrak's historically high 
ridership--even though the railroad's fares are as high as the market 
can bear, especially on the Northeast corridor--is evidence of this.
    The need to maintain mobility for our citizens, bolster our 
Nation's economic competitiveness and energy efficiency, provide good 
jobs for Americans, and reduce our transportation system's negative 
environmental impact all demand that we ramp up investment in modern 
passenger trains.
    The following table, showing 2008 data, comes from the annual 
Transportation Energy Data Book (Edition 29, released in 2010), 
published by Oak Ridge National Laboratory under contract to the 
Department of Energy, at http://cta.ornl.gov/data/chapter2.shtml:

------------------------------------------------------------------------
                                                           BTUs \1\ per
                          Mode                            passenger-mile
                                                                \2\
------------------------------------------------------------------------
Amtrak..................................................           2,398
Commuter trains.........................................           2,656
Certificated air carriers (domestic)....................           2,995
Cars....................................................           3,437
Light trucks (2-axle, 4-tire)...........................           3,641
------------------------------------------------------------------------
\1\ BTU = British thermal unit.
\2\ Passenger-mile = one passenger traveling 1 mile.

    The table indicates that Amtrak is 20 percent and 30 percent more 
energy efficient per passenger-mile, respectively, than airlines and 
autos. That is true even though Amtrak's fleet averages 37 years old 
while the airplane and automobile fleet is constantly turning over with 
energy efficiency generally improving. Thus, the Amtrak 2008 figures 
understate rail's true potential.
    We are disappointed that negotiations between Amtrak and Union 
Pacific Railroad apparently remain stalled regarding Amtrak's 
initiative to provide daily service over the entire line between New 
Orleans and Los Angeles.
    We fully support Amtrak's Gateway Tunnel project, which will create 
a long-overdue expansion in track capacity between New York City and 
New Jersey, and for the entire Northeast corridor.
    We are concerned about the impact of Passenger Rail Investment and 
Improvement Act's section 209 which directs States to provide full-
operating support for intercity trains whose routes total 750 miles or 
less. It is important that this not become an obstacle to service 
continuation. We continue to urge consideration, at least in emergency 
situations, of allowing Federal support for such routes' continued 
operation on a 50-50 matching basis, without making Amtrak swallow the 
difference.
    Thank you for considering our views.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), a consortium of 76 research universities that manages the 
National Center for Atmospheric Research, I submit this written 
testimony regarding the fiscal year 2012 appropriation for the record 
of the Senate Committee on Appropriations, Subcommittee on 
Transportation, Housing and Urban Development, and Related Agencies. I 
urge the subcommittee to fully fund the fiscal year 2012 $110 million 
request for the Federal Highway Administration's (FHWA) Intelligent 
Transportation Systems (ITS) program including the ITS Wireless 
Innovation Initiative. Further, I ask that the subcommittee support 
$2.87 billion for the Federal Aviation Administration's (FAA) 
Facilities and Equipment (F&E) account and $190 million for its 
Research, Engineering and Development (RE&D) account.
    The Department of Transportation (DOT) relies on its partnerships 
with State DOTs, local transportation agencies, the first responder 
community, freight community, and the academic community, to meet its 
mission of ensuring a fast, safe, efficient, accessible, and convenient 
transportation system that meets our vital national interests and 
enhances the quality of life of the American people. The academic and 
research community contributes directly to this mission with applied 
research and development (R&D) of cutting-edge technologies to move 
people and shipments safely and expeditiously. Research on the physics 
of microbursts, for example, has resulted in the development of wind 
shear detection technologies that, since full implementation, have 
reduced aircraft crashes caused by downbursts to zero. Applied research 
is now being conducted on road snow and ice control, aircraft icing, 
and turbulence, and other weather hazards, resulting in products that 
are saving industry and States tens of millions of dollars per year and 
making the traveling public far safer on the roads and in the skies. I 
urge you to support the requested levels for the following programs:
 federal highway administration's research, technology, and education 
                                program
    Understanding and addressing adverse weather conditions helps to 
mitigate the impacts of congestion and accidents, and is a high 
priority for the FHWA. The Research, Technology, and Education Program 
provides for a comprehensive, nationally coordinated program that will 
advance DOT organizational goals and accelerate innovation delivery and 
technology implementation. The request includes $257 million for the 
following Research and Innovative Technology Administration programs on 
which I would like to comment.
Intelligent Transportation Systems
    Every year, thousands of people are injured or killed in accidents 
on our Nation's highways because of bad weather and poor road 
conditions. The consequences go beyond those human costs to include 
lost productivity to commercial motor vehicle operators and the expense 
to local governments responsible for clearing accidents and repairing 
damaged roadways, to say nothing of the inconvenience to motorists.
    Because of R&D investments, innovative new wireless technologies 
will soon allow cars to share with vehicles behind them important 
safety data such as adverse weather and road conditions. Knowing about 
icy or foggy road conditions 2 miles ahead, for example, will save 
lives and keep traffic moving smoothly. DOT's IntelliDrive (recently 
renamed ``Connected Research Vehicle'') program is the centerpiece of 
the DOT ITS 2010-2014 Strategic Research Plan. Intellidrive partners 
government, industry, academia, and others to specify, develop, and 
produce the necessary technology to gather and broadcast a car's 
``heartbeat'' continuously, including weather conditions. Road weather-
connected vehicle applications are the next generation of applications 
and services that assess, forecast, and address the impacts of weather 
on roads, vehicles, and travelers. Such applications will build upon 
decision support tools currently undergoing development, testing, and 
deployment such as the Clarus Regional Demonstrations, the Maintenance 
Decision Support System and Vehicle Data Translator.
    To meet its core research and technology transfer mission, I urge 
you to support the requested fiscal year 2012 amount of $110 million 
for the FHWA's ITS, including IntelliDrive and its V-V and V-I 
Communications for Safety program ($43.3 million) and Dynamic Mobility 
Applications ($14 million). However, I am concerned about the proposed 
consolidation of Road Weather Research with these larger programs. The 
risk is that this successful, small program could be seriously 
compromised. Road Weather Research has been highly leveraged by States 
and localities to save lives and millions of dollars. I urge you to 
ensure that at least $5 million for a distinct road weather research 
program is included as an important safety and mobility R&D topic in 
the previously mentioned programs. This funding is consistent with the 
Safe, Accountable, Flexible, Efficient Transportation Act: A Legacy for 
Users (SAFETEA-LU).
Intelligent Transportation Systems Wireless Initiative
    DOT's ITS program is launching a new research initiative to improve 
transportation safety, relieve traffic congestion, and enhance 
productivity. The budget request includes funding for the ITS Wireless 
Initiative, which will be managed by RITA and funded out of the 
Miscellaneous Appropriations account. This new program will develop 
``living laboratories'' where innovative wireless communications 
methods and applications can be developed for eventual deployment. To 
accomplish its goals, the DOT will leverage the knowledge, expertise, 
and experience of the research community. I urge you to support the 
fiscal year 2012 request of $100 million for FHWA's ITS Wireless 
Initiative.
              faa's research, engineering, and development
    The FAA's fiscal year 2012 budget request supports continued 
aviation safety and capacity R&D, focusing on critical areas such as 
turbulence, in-flight icing, storm prediction, oceanic weather, and 
restricted visibility. For more than two decades, the FAA has funded 
R&D efforts to improve forecasting of weather affecting aviation.
    The fiscal year 2012 request continues important work in current 
research areas, including aviation weather. This budget supports 
enhanced Next Generation Air Transportation System (NextGen) R&D 
efforts in the areas of improved weather information for integration 
into decisionmaking, weather information for pilots, and environmental 
research for aircraft technologies and alternative fuels to improve 
aviation's environmental and energy performance. The following programs 
can be found within the RE&D section of the fiscal year 2012 FAA budget 
request:
Weather Program
    The goal of the Weather Program is to increase safety and capacity, 
and to support NextGen. A number of aviation weather research projects 
are underway, in collaboration with industry representatives, focusing 
on in-flight icing, turbulence, winter weather, and deicing protocols, 
thunderstorms, ceiling, and visibility. One example of a system that 
translates a large amount of weather data into significant safety and 
delay improvements is the Consolidated Storm Prediction for Aviation 
(CoSPA). Thunderstorms and winter storms have long been recognized as 
significant safety hazards, as well as major causes of system delays. 
Using CoSPA, accurate forecasts of storms can be translated into 
probable impacts to the system. This allows for improved decisionmaking 
resulting in improved safety and reduced delays.
    I am very concerned that the budget request of $16.4 million will 
not support the R&D needs of the Weather Program within RE&D. The 
request for this program is reduced more than 2 percent from the fiscal 
year 2010 level and is operating at one-half the level of funding 
appropriated 10 years ago. To address the pressing challenges and to 
meet the research needs of NextGen, the Weather Program must receive, 
at a minimum, $18 million for fiscal year 2012.
Weather Technology in the Cockpit
    The 2009 crash of an Air France jet over the Atlantic Ocean, 
killing all 216 passengers and 12 crew members, is very likely an 
example of the limits of pilots' ability to cope with severe weather. 
Pilots currently have little weather information as they fly over 
remote stretches of the ocean where some of the worst turbulence 
encounters occur. Providing pilots with at least an approximate picture 
of developing storms could help guide them safely around areas of 
potentially severe turbulence.
    The Weather Technology in the Cockpit Program leverages research 
activities with other agencies, academia, and the private sector by 
enabling the adoption of cockpit technologies that provide pilots with 
hazardous weather information and improve situational awareness.
    I am very concerned that the fiscal year 2012 request for this 
small, but life-saving program within RE&D was reduced by almost 4 
percent from fiscal year 2010 levels. I urge you to fund the Weather 
Technology in the Cockpit program at $10 million, at a minimum.
                     faa's facilities and equipment
    Delays in the National Airspace System (NAS) are primarily 
attributable to weather. According to the FAA, during the last 5 years 
more than 70 percent of delays of 15 minutes or more, on average, were 
caused by weather. Weather also impacts safety. Between 1994 and 2003, 
weather was determined to be a contributing factor in more than 20 
percent of all accidents. Currently, most operational decision tools do 
not utilize weather information effectively or at all. Therefore, 
exploring, identifying, and employing better methods for data 
collection and communication will help facilitate the flow of 
operation-specific weather data and information to end users. Within 
F&E, I would like to call your attention to the following two very 
important programs:
    NextGen Network Enabled Weather.--NextGen Network Enabled Weather 
(NNEW) is a transformational, multiagency project dedicated to using 
and developing technologies and standards for NextGen that will support 
effective dissemination of weather data. NNEW will develop the FAA's 
portion of the 4-D Weather Data Cube which will provide standardized 
information from multiple contributors and locations to a variety of 
end-users including air traffic managers and pilots.
    The fiscal year 2012 request for NNEW is $27.35 million, a $7 
million increase more than fiscal year 2010. To develop the NextGen 
weather dissemination system smoothly and efficiently, I urge you to 
support this request.
    NextGen Reduce Weather Impact.--The goal of the NextGen Reduce 
Weather Impact program is to provide increased capacity in NAS while 
reducing congestion and meeting projected demand in an environmentally 
sound manner. The current weather observing network is inadequate to 
the needs of NextGen and improvements will be central to the work in 
the Reduce Weather Impact Program. Working with appropriate scientific, 
modeling, and user communities, current sensor information and 
dissemination shortfalls will be identified and evaluated. 
Investigating technologies for optimizing and improving automated 
aircraft weather reporting will also be conducted, to meet NextGen 
requirements.
    The Reduce Weather Impact portfolio will leverage the NNEW 
transformational program that will interface with the National Oceanic 
and Atmospheric Administration's 4-D Weather Data Cube, for universal 
common access to weather information.
    I urge you to increase the NextGen Reduce Weather Impact program 
funding to $43.2 million for fiscal year 2012, an increase of $7.6 
million from fiscal year 2010.
    On behalf of UCAR, I want to thank the subcommittee for its 
leadership in supporting research, development and technology transfer 
programs within the FHWA and FAA, and for your commitment to ensuring 
safer, more efficient air and road travel.
                                 ______
                                 
                     Prepared Statement of YWCA USA
    Thank you Chairman Murray, Ranking Member Collins, and members of 
the subcommittee for the opportunity to submit testimony. My name is 
Gloria Lau, and I am the chief executive officer of the YWCA USA. As 
the Congress works on priorities for the fiscal year 2012 Federal 
budget, I would like to highlight one vital program in particular under 
the jurisdiction of this subcommittee: the Community Development Block 
Grant (CDBG) which is administered by the Department of Housing and 
Urban Development (HUD).
    The YWCA USA is a national, not-for-profit (501(c)(3)) membership 
organization committed to eliminating racism, empowering women, and 
promoting peace, justice, freedom, and dignity for all. We represent 
more than 2 million women and girls with nearly 300 local associations 
nationwide. We serve thousands of women, girls, and their families 
annually through a variety of programs including violence prevention 
and recovery programs, housing programs, job training, and employment 
programs, childcare and early education programs, and more. Our clients 
include women and girls who come from all walks of life, including 
those escaping violence, low-income women and children, women veterans, 
elderly women, disabled women, and homeless women and their families.
    The YWCA is a major provider of social services to women, children, 
and families throughout the United States. Today, the YWCA is the 
largest provider of battered women's shelters in the Nation and one of 
the largest providers of childcare. As a major provider of social 
services, the YWCA is extremely supportive of the CDBG. Every day, in 
communities across this country, we witness the important role CDBG 
plays in helping communities meet the needs of their low-income women, 
children, and families. Today, CDBG is one of three main funding 
streams for YWCA programs and services nationwide. YWCAs use CDBG 
funding for a variety of programs, including programs that assist 
victims of domestic violence and sexual assault, children and youth, 
and homeless women and children. CDBG also provides flexible funding 
for YWCAs nationwide to make capital improvements to their buildings 
such as installing wheelchair ramps or security cameras.
    Because of our strong support for the CDBG, the YWCA asks the 
subcommittee to concur at a minimum to fund the CDBG program in HUD at 
$4 billion. This call for support comes directly from local communities 
across the country, as local YWCA associations surveyed in December 
2010 identified this vital block grant as one of their most critical 
funding sources for the services they provide.
    As members of the subcommittee know, the CDBG, created in 1974, is 
a block grant program that provides funding to local communities across 
the United States. The CDBG provides annual grants on a formula basis 
to more than 1,200 units of local government and States, which then use 
the funds to pay for community development initiatives, affordable 
housing programs, and anti-poverty initiatives. CDBG helps communities 
provide social services to low-income women, children, and families who 
reside in their communities, but cannot afford the cost of services.
    While CDBG is often perceived as a funding stream mainly for local 
governments, the impact of this program on nonprofit organizations, 
such as the YWCA, is substantial. Local governments that receive CDBG 
collaborate with community service providers, such as YWCAs, to provide 
social services. The local governments then pass through the CDBG funds 
to the service providers to help cover the cost of the services 
provided.
    As a service provider working with women, children, and families 
with unique needs, the YWCA values the fact that CDBG is not a cookie-
cutter/one-size-fits-all program; it is a block grant funding stream 
that provides local governments and States flexibility in developing 
programs and services most appropriate to meet the needs of its low-
income residents. Thanks to the flexibility afforded under the block 
grant, YWCAs are able to use CDBG funding for a variety of programs and 
services that help countless women, children, and families annually. 
For example, YWCAs use CDBG funding to provide:
  --short-term shelter and supportive services for homeless families;
  --night and day shelter and services for chronically homeless women;
  --economic assistance programs that help low-income working women pay 
        for work uniforms, tools, transportation, background checks, 
        and certification and licensing fees;
  --housing programs such as emergency, transitional, and permanent 
        housing for women and families;
  --programs and services for vulnerable women and children including 
        programs that help formerly incarcerated women returning to the 
        community;
  --after-school groups and youth recreation programs in at-risk 
        neighborhoods for girls and boys; and
  --programs for adult and child survivors of domestic violence and 
        sexual assault.
    In addition, though often not recognized as an important source of 
funding for addressing violence against women and children, CDBG plays 
a critical role in the ability of YWCAs to meet the needs of women and 
children who are crime victims. For example, YWCAs nationwide are 
allocated CDBG funds by their local governments to provide anti-
violence services such as emergency shelters and services for victims 
of domestic violence; sexual assault crisis services including 24-hour 
hotlines, support group and crisis counseling; hospital, police 
department and court accompaniments; and prevention education.
    Given the flexible nature of CDBG, it is not surprising that YWCAs 
cite CDBG as one of the most vital sources of Federal funds available 
to serve people in their communities. Stories abound of how YWCAs have 
been able to serve women and families in cities and towns across the 
United States because of CDBG funding. The following are just a few 
stories:\1\
---------------------------------------------------------------------------
    \1\ Ibid.
---------------------------------------------------------------------------
    The YWCA of Lancaster uses CDBG funding to run its Sexual Assault 
Prevention and Counseling Center, which serves 700 to 1,000 direct 
service clients annually. Specifically, the YWCA uses CDBG funding to 
hire counselors to work directly with the victims of sexual assault. A 
loss in CDBG funding for the YWCA of Lancaster would mean sexual 
assault victims would not be able to receive services and would be 
placed on a waiting list. Maureen Powers, the executive director of the 
YWCA of Lancaster, comments, ``One-third of our direct service clients 
are children, and we really should not have a waiting list for child 
clients. It takes a lot for them to disclose sexual abuse to begin 
with.'' Though these are tight fiscal times for our Nation, I think 
many of us would agree that funding to help child victims of sexual 
assault is taxpayer money well spent.
    Another story,\2\ this time from the YWCA of Binghamton/Broome 
County in Binghamton, New York, further demonstrates how CDBG helps the 
most vulnerable in our communities. The YWCA of Binghamton/Broome 
County uses CDBG funding to run its emergency shelter for women, which 
serves more than 300 women and children a year. Many of the women and 
children served by the shelter are victims of domestic violence. CDBG 
funds, which come to the program through the city of Binghamton annual 
Emergency Shelter Grant, are the shelter's primary funding source. A 
loss in CDBG funding would mean the women and children served by the 
shelter would not be able to receive housing and the shelter, the only 
facility of its kind in the community, would possibly have to close.
---------------------------------------------------------------------------
    \2\ As reported in ``A Better Budget for All: Saving Our Economy 
and Helping Those in Need'' published by Coalition on Human Needs for 
the ``For the SAVE for All Campaign: Strengthening America's Values and 
Economy for All'', on February 25, 2011, and downloaded from http://
www.chn.org/pdf/2011/BetterBudget4AllReport.pdf.
---------------------------------------------------------------------------
    In today's anti-spending climate, people often believe Federal 
funding provides total operating funding for social service programs. 
That is not the case for local YWCAs that use Federal, State, and local 
funding as well as individual, foundation, and corporate donations. 
Even if CDBG does not provide total program funding for YWCA programs, 
CDBG provides funding for critical components of those programs. For 
YWCAs across this country, every dollar counts.
    In addition to helping fund vital components of social services 
programs, CDBG helps nonprofit service providers leverage other sources 
of funding--whether from other government sources or private community 
support--to further assist women and children in need. For example, in 
2010, the YWCA Seattle/King/Snohomish in Washington used more than $1.4 
million in CDBG funding to leverage approximately $19 million in other 
funding to support some of its most critical programs such as those for 
homeless individuals and families and those with very low incomes. 
Though CDBG accounted for just a small percentage of this YWCA's 
government grants and operating income, the YWCA would have had to 
decrease services without CDBG funds.
    In Lewiston, Maine, the YWCA has used support from community block 
grant funds to make an aging facility more safe, more energy efficient 
and more usable for the 10,000 people from a tri-county area who look 
to the YWCA for support and services. With just a modest amount of 
funding support, this Maine YWCA is working in close cooperation with 
its community to be more green, more accessible to disabled clients and 
more responsive to the women and their families who come to the YWCA 
for lifesaving support.
    As you can see, this call for your support of CDBG comes directly 
from communities across the country. CDBG is an invaluable tool that 
assists local governments in addressing domestic violence, sexual 
assault, homelessness, and poverty. Severely cutting CDBG funding would 
cause budget gaps for local governments, lead to the discontinuation of 
many vital community services, and place in harm's way some of our 
Nation's most vulnerable women and children.
    Though my testimony today is on behalf of the YWCA, the importance 
of CDBG is also recognized by the leaders of our Nation's cities and 
our U.S. Senators. These leaders recognize that cutting CDBG would be 
harmful because it promotes private sector growth.
    For example, every $1 from the CDBG program brings in $1.62 in non-
CDBG funds.\3\ As noted by the National League of Cities, for nearly 
four decades, CDBG has served as a catalyst for financing housing, 
infrastructure, and economic development in America's cities and towns. 
The program has also been credited with retaining and creating 
employment opportunities. According to a letter written in March 2011 
to the chairman and ranking member of the Appropriations Committee, 
signed by about one-third of the Senate, ``Based on data that grantees 
have reported to the U.S. Department of Housing and Urban Development 
over the past 6 years, the CDBG program has . . . created or retained 
259,346 jobs for low- and moderate-income persons through a variety of 
economic development activities.'' The letter also notes that CDBG has:
---------------------------------------------------------------------------
    \3\ National League of Cities CDBG Issue Brief, downloaded April 
12, 2011, from http://www.nlc.org/ASSETS/
4D74A625F6714A6688F93FC892AA0FAC/CDBG-Issue-Brief.pdf.
---------------------------------------------------------------------------
  --Assisted 865,874 low- and moderate-income households through 
        single-family and multifamily residential rehabilitation, home 
        ownership assistance, energy efficient improvements and lead-
        based paint abatement;
  --Benefited 22,998,047 low- and moderate-income households through 
        such public improvements as the development of senior centers, 
        childcare centers, and centers for the disabled; and
  --Benefited 73,863,286 low- and moderate-income households through 
        public services such as employment and training, youth 
        services, meals and other assistance to the elderly, and 
        services for abused and neglected children.
    The contribution of the CDBG program to thousands of communities 
across the country and hundreds of thousands of people in the United 
States cannot be denied.
    In closing, the YWCA recognizes these are unique times in our 
Nation's history and we agree that our Nation must address its deficit 
and debt. At the same time, the YWCA believes strongly that investments 
in local communities and programs are wise uses of Federal funds that 
provide substantial returns to our Nation. On behalf of YWCAs 
nationwide, we look to you for continued commitment to the women, 
children, and families we serve through the CDBG and respectfully ask 
the subcommittee to support the President's fiscal year 2012 budget 
request for $4 billion dollars in funding for CDBG.
    Thank you once again for the opportunity to provide testimony to 
your subcommittee. Your attention and assistance are greatly 
appreciated.

</pre></body></html>
